OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BOLIVIA’S
HEALTH PROGRAM
AUDIT REPORT NO. 1-511-13-003-P
JUNE 20, 2013




SAN SALVADOR, EL SALVADOR

Office of Inspector General


June 20, 2013

MEMORANDUM

TO:             USAID/Bolivia Mission Director, Janina Jaruzelski

FROM:           Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:        Audit of USAID/Bolivia’s Health Program (Report No. 1-511-13-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft and have included them in their entirety in
Appendix II.

The report contains ten recommendations to help USAID/Bolivia improve the health program’s
long-term objectives. Based on actions that the mission has taken or plans to take, final action
was taken on seven recommendations and a management decision has been reached on three.

Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action for all the
recommendations.

I want to express my appreciation for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Promeso’s Monitoring and Evaluation Plan Was Incomplete and Not Fully 

     Implemented ........................................................................................................................... 4 


     PROSALUD Did Not Develop a Management and Sustainability Plan for Promeso .............. 5 


     Distributors and Clinics Were Not Repaying PROSALUD for Contraceptives ........................ 6 


     Data Quality Assessment Was Not Conducted by Independent Party ................................... 7 


Other Matters............................................................................................................................... 8 


     Training Data Were Not Reported in TraiNet .......................................................................... 8 


     Mission Did Not Submit Documents to Clearinghouse ........................................................... 9 


Evaluation of Management Comments................................................................................... 10 


Appendix I—Scope and Methodology .................................................................................... 12 


Appendix II—Management Comments ................................................................................... 14 




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
DEC             Development Experience Clearinghouse
DQA             data quality assessment
FY              fiscal year
HCP             Healthy Communities Project
M&E             monitoring and evaluation
RIG             Regional Inspector General
TraiNet         Training Results and Information Network
SUMMARY OF RESULTS 

Through the Global Health Initiative Strategy, the U.S. and Bolivian Governments strive to
address the challenges that community-level health systems face in Bolivia’s Chuquisaca and
La Paz Departments. USAID/Bolivia is implementing a significant part of the health strategy
through two awards to PROSALUD, a Bolivian nongovernmental organization.

	 The Healthy Communities Project (HCP) is a $14.2 million, 5-year project that began on
   December 12, 2011. HCP’s goals are to (1) improve the health system to remove
   operational barriers that make it difficult to access quality health care, (2) improve the clinical
   knowledge, cultural awareness, and interpersonal communication skills of health care
   providers, and (3) support sexual and reproductive rights by promoting healthy practices and
   reducing risk factors.

	 The Social Marketing Activity (known as Promeso) is a $5 million, 3-year project that began
   on September 30, 2011. Promeso’s goals are to (1) expand access to contraceptives,
   (2) increase the number of people who use contraceptives, (3) reduce maternal and child
   mortality, and (4) maintain Bolivia’s low prevalence of HIV/AIDS. As of March 1, 2013,
   obligations and disbursements for Promeso totaled $3 million and $1.4 million, respectively.

The Regional Inspector General/San Salvador (RIG/San Salvador) conducted this audit to
determine whether USAID/Bolivia was achieving its goals of strengthening the capacity of
community-level health systems, expanding access to contraceptives, and increasing
awareness of sexual and reproductive health.

The audit found that PROSALUD implemented the HCP and Promeso projects late because it
focused on closing out previously funded USAID projects and had difficulty finding staff. After
these initial delays, however, PROSALUD was able to make considerable progress, especially
during the second half of 2012.

HCP strengthened the capacity of community-level health systems in 11 municipalities’ health
networks of clinics and hospitals; this should help the networks provide equitable, effective, and
efficient services. The project brought health providers and community representatives together
to plan, manage, and monitor activities in eight municipalities, and it provided training to more
than 80 community representatives in basic health rights. As part of its efforts to increase
awareness, HCP sponsored events to bring attention to gender-based violence, educated youth
on reproductive health, and helped community representatives identify solutions to health
problems and get access to health care.

The Promeso project expanded access to contraceptives through its network of distributors;
they reported reaching 108 untraditional sales outlets such as grocery and liquor stores, motels,
and brothels. In addition, PROSALUD introduced two new contraceptives, and overall sales to
pharmacies exceeded the targets in fiscal year (FY) 2012. It also contributed to increased
awareness by (1) training doctors and nurses about family planning methods, (2) implementing
communication campaigns, and (3) distributing 510,000 promotional materials on the use of
contraceptives.

While these activities are strengthening the capacity of community-level health systems and
expanding access to contraceptives, it is too early to determine whether PROSALUD has

                                                                                                    1
increased Bolivians’ awareness of sexual and reproductive health. An independent survey to
evaluate the projects’ impact is scheduled for June 2014.

The audit identified certain areas for improvement that will help the projects achieve their long-
term objectives.

	 Promeso’s monitoring and evaluation (M&E) plan was incomplete and not fully implemented
   (page 4). PROSALUD did not define indicators, track targets and results, or verify data
   quality.

	 PROSALUD did not develop a management and sustainability plan for Promeso (page 5).
   Promeso’s chief of party said they have discussed preliminary concepts of the plan with
   mission officials, but further actions were on hold pending an independent analysis of
   PROSALUD’s social marketing activities, which is not expected to start until April 2013.

	 Distributors and clinics were not repaying PROSALUD for contraceptives purchased on
   credit (page 6). Many of the outstanding debts in the system were from another USAID
   contraceptive distribution project.

	 Promeso’s data quality assessment was not conducted by an independent party (page 7).
   This lack of independence can compromise data quality or even invalidate an assessment.

The audit also identified other matters that warrant the mission’s attention.

	 PROSALUD was not reporting training results in USAID’s Training Results and Information
   Network (TraiNet) for HCP (page 8). Project officials said the employees had not been
   trained to use the system.

	 USAID/Bolivia did not submit documents to the Agency’s Development Experience
   Clearinghouse (page 9). While mission officials recognized this problem and started working
   to resolve it, as of March 1, 2013, the required documents have not yet been submitted.

The audit recommends that USAID/Bolivia:

1. 	 In conjunction with PROSALUD, complete Promeso’s monitoring and evaluation plan, which
     will define clearly each indicator and its target, source, and method for data collection
     (page 5).

2. 	In conjunction with PROSALUD, implement a validation and verification process for
    Promeso’s indicators (page 5).

3. 	Work with PROSALUD to complete Promeso’s management and sustainability plan
    (page 5).

4. 	Help PROSALUD implement effective controls and procedures to avoid unpaid debts,
    reconcile the accounting records to determine the exact amounts each distributor owes, and
    collect those amounts (page 6).

5. 	 Assign an independent party to conduct the data quality assessments for Promeso (page 7).



                                                                                                2
6. 	 In conjunction with PROSALUD, verify in writing that all necessary training information is
     entered into TraiNet and reported in the progress reports for the Healthy Communities
     Project (page 8).

7. 	 Provide and document training to its staff and implementing partners on how to use and
     report results in TraiNet (page 8).

8. 	 Determine in writing who will monitor the Training Results and Information Network for the
     mission, and implement a verification process to confirm that the information entered and
     reported is accurate (page 8).

9. 	Review reporting requirements, confirm in writing that all required documents have been
    submitted to USAID’s Development Experience Clearinghouse, and identify and document
    individuals to serve as liaisons to the clearinghouse (page 9).

10. Require PROSALUD to include in its progress reports a cumulative list of reports, studies,
    and documents that it has submitted to USAID’s Development Experience Clearinghouse
    (page 9).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. The mission’s comments are included in Appendix ll, and our evaluation of them is
on page 10.




                                                                                             3
AUDIT FINDINGS 

Promeso’s Monitoring and Evaluation
Plan Was Incomplete and Not Fully
Implemented
Automated Directives System (ADS) 203.3.4.3 states that M&E plans should “support reliable
data collection by defining indicators, sources, and methods of data collection, and prescribed
frequency and schedule of data collection.” Indicators should monitor results for each level of
the project and provide a precise definition for each indicator. Additionally, USAID must
establish baselines and targets for them. Per ADS 200.2, missions are required to “ensure that
all accountability requirements” related to their projects “are identified, met, and adequately
documented.”

According to the Promeso agreement, PROSALUD was to develop an M&E plan during the
first 45 days of implementation to track the activities and results outlined in the project.
PROSALUD was required to work closely with the mission’s health office to develop relevant
indicators for measuring and reporting outputs and impact. The agreement further states that
the plan will include a list of indicators with their respective sources for obtaining data, report on
the progress toward targets, and include explanations of any problems related to data quality.

During Promeso’s first year, PROSALUD submitted an M&E plan that listed 28 indicators.
However, the plan had some weaknesses, described below.

	 PROSALUD did not define the indicators, nor did it explicitly identify the source or method
   for collecting and reporting data.

	 PROSALUD did not establish annual targets for most of its indicators for fiscal years 2012 or
   2013.
 PROSALUD did not collect data for most of the indicators and did not report results to
   USAID/Bolivia. During this audit, Promeso analyzed many indicators and calculated its
   FY 2012 results in February 2013, 5 months after the data should have been collected.

	 PROSALUD’s M&E specialist for Promeso did not verify reported results and mostly
   compiled figures reported by others. He relied on his colleagues to report on the number of
   people trained and did not maintain any documentation to support that number. Additionally
   it was unclear how participants were counted. Because of the lack of controls, there were
   errors in the reported number of people trained.

These weaknesses occurred because USAID/Bolivia did not make sure that changes to the
accountability requirements related to M&E plans were documented adequately. Mission
officials said that after PROSALUD submitted its plan, the mission wanted to focus on different
indicators and asked PROSALUD to report only on 6 health office indicators and 5 required
project indicators—a total of 11 indicators (only 2 of which were included in the original M&E
plan). The reason for this change was that many of the indicators in the M&E plan did not reflect
the mission’s data needs. However, USAID’s request to change indicators was not documented,
and PROSALUD did not revise the M&E plan. Promeso officials said it was on hold pending an
independent analysis of the indicators by the end of March 2013. They said they planned to

                                                                                                    4
submit a revised M&E plan for USAID/Bolivia’s approval thereafter.

Without indicator targets and results to measure performance, it will be difficult for the mission to
track progress and make necessary adjustments to the activities during implementation. Also,
insufficient data monitoring and verification could erode confidence in the data or lead to making
wrong decisions. Therefore, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Bolivia, in conjunction with
   PROSALUD, complete Promeso’s monitoring and evaluation plan, which will define
   clearly each indicator and its target, source, and method for data collection.

   Recommendation 2. We recommend that USAID/Bolivia, in conjunction with
   PROSALUD, implement a validation and verification process for Promeso’s indicators.

PROSALUD Did Not Develop
Management and Sustainability Plan
for Promeso
The Promeso award states that within the first 6 months of project implementation, PROSALUD
must develop and implement a management and sustainability plan. USAID’s project design
guidance adds that the plan should include a “strategy to ensure that the institution will remain
administratively and financially sustainable by the end of the project and equipped to continue to
play [its role] in local development.”

However, 18 months after project implementation, the management and sustainability plan had
not been developed. Promeso’s chief of party said they have discussed preliminary concepts of
the plan with USAID/Bolivia officials, but further actions were on hold pending an independent
analysis of PROSALUD’s social marketing activities that started in April 2013. As a result, the
management and sustainability plan probably will not be finalized and approved by the mission
until the end of FY 2013, leaving only 1 year for PROSALUD to implement it.

The management and sustainability plan was not developed because of confusion regarding the
specific requirements for these plans. USAID/Bolivia officials believed that PROSALUD had met
the requirements by submitting a financial plan, which the mission approved in June 2012.
However, this financial plan was only one part of a well-developed management and
sustainability plan, and cannot be considered as the plan itself. Furthermore, the financial plan
was developed to meet a requirement under a previous PROSALUD project, and the Promeso
agreement noted that the plan should be considered when developing Promeso’s overall
management and sustainability plan.

USAID’s project design guidance states, “The ultimate goal of development cooperation is to
enable developing countries (governments, civil society, and private sector organizations) to
devise and implement their own solutions to key development challenges. All projects must
define the degree of sustainability that is considered essential for the success of the project.” A
delay in completing the management and sustainability plan could affect PROSALUD’s ability to
be sustainable after the project ends and affect USAID/Bolivia’s decisions for future health
programming. Therefore, we make the following recommendation.

   Recommendation 3. We recommend that USAID/Bolivia work with PROSALUD to
   complete Promeso’s management and sustainability plan.

                                                                                                   5
Distributors and Clinics Were Not
Repaying PROSALUD for
Contraceptives
According to ADS 625, as part of the Debt Collection Improvement Act of 1996, “Debt collection
efforts must provide for timely, forceful, and efficient action to collect from the individual payee,
recipient, or other person or entity legally liable for payment of the debt” within the initial 60 days
of the delinquency period. Furthermore, through an agreement between USAID and
PROSALUD in 2009, USAID provided special funds to PROSALUD to procure contraceptives.
The agreement requires PROSALUD to fully comply “with the regulations established by the
government of the United States of America through USAID.” USAID is also “responsible for
tracking, monitoring, and approving the use of donations and funds up to 5 years after the last
donation,” which was made in 2009.

As part of Promeso’s agreement, PROSALUD procures contraceptives for distributors that then
sell them to various vendors throughout Bolivia. While some distributors pay in cash, many
receive a line of credit for 45 to 60 days. PROSALUD also sells contraceptives on credit to its
affiliated clinics.

PROSALUD's accounting system showed that several distributors and clinics had not paid for
their contraceptives according to the terms of their credit lines. Five with balances that totaled
$49,5391 were between 300 and 1,600 days overdue. Many of the outstanding debts were
carried over from an earlier USAID-funded contraceptive distribution project. Promeso officials
said the accounting system was already problematic when the project started, and they were
concerned that existing records were not accurate

These uncollected debts occurred because PROSALUD has not always maintained effective
financial controls over its contraceptive sales program. Since Promeso began in
September 2011, PROSALUD has improved its financial controls by (1) sending written notices
to distributors when payments were overdue, (2) verifying that a distributor did not have an
overdue debt before allowing more orders to be placed, and (3) requiring a mortgage guarantee.
However, PROSALUD did not follow these controls consistently; late notices were not sent on a
regular basis, and distributors with overdue debts were allowed to buy more contraceptives.
Promeso officials said they would have to perform reconciliations to determine the exact
balance due from each distributor.

Selling contraceptives is one of PROSALUD’s main sources of revenue. Having strong controls
over the collection of money from distributors and clinics is vital to the long-term success of
PROSALUD and its social marketing activities. Since USAID/Bolivia aims to help PROSALUD
become sustainable by the end of the activity, addressing these accounting problems is an
important step toward this goal.

      Recommendation 4. We recommend that USAID/Bolivia help PROSALUD implement
      effective controls and procedures to avoid unpaid debts, reconcile the accounting
      records to determine the exact amounts each distributor owes, and collect those
      amounts.

1	
     This equates to 344,795.83 bolivianos (Bs) using the March 2013 exchange rate of Bs 6.96 per 1 U.S.
     dollar.

                                                                                                      6
Data Quality Assessment Was Not
Conducted by Independent Party
ADS 203 states that the purpose of a data quality assessment (DQA) is to make sure missions
are aware of “the strengths and weaknesses of the data,” and the “extent to which the data
integrity can be trusted to influence management decisions.” The ADS also states that a DQA
needs to meet USAID data quality standards, which include validity and reliability.

Officials from HCP conducted the required DQAs for the mission’s health indicators, including
those associated with the Promeso project. While the staffs of HCP and Promeso are not
collocated, PROSALUD funds and manages both projects. PROSALUD had been responsible
for conducting DQAs as part of an earlier project with USAID/Bolivia. However, USAID/Bolivia
did not see it as a conflict of interest because the PROSALUD project offices were independent
from each other; both were located in different cities and maintained a separate staff. Therefore,
the mission did not revise the agreement when PROSALUD began implementing two health
projects in 2011.

During a meeting with the audit team, however, officials from HCP and USAID/Bolivia agreed
that having HCP perform a DQA for Promeso can be perceived as a conflict of interest.2 Lack of
independence during the administration of a DQA could compromise the quality or even
invalidate its conclusions. To address this concern, we make the following recommendation.

     Recommendation 5. We recommend that USAID/Bolivia assign an independent party
     to conduct the data quality assessment for Promeso.




2
    USAID/Bolivia staff conducted the DQA for HCP’s indicators.

                                                                                                7
OTHER MATTERS 

Training Data Were Not Reported in
TraiNet
ADS 253.3 states that all USAID units involved in funding or managing training must “design,
implement, and track the training or program event for results and impact,” and “report on
participant training activities as part of their monitoring, evaluation, and reporting requirements.”
Training information that meets minimal requirements of hours trained must be entered into
TraiNet. In addition, the HCP award states that PROSALUD will report on planned and actual
training activities that have been entered into TraiNet in its quarterly and annual reports.

As of the end of FY 2012, HCP had completed 41 training courses, but the staff entered data
from only 1 in TraiNet. In addition, HCP officials did not report on planned and actual training
activities in their progress reports as required.

HCP officials said the staff had not received training on how to use the system. They said they
were not sure how to count trainees, which courses to include or exclude, what information
needed to be entered, and what the cutoff date was for entering information. While the officials
now are more aware of the need to enter data into TraiNet, the information entered to date is
still incomplete.

These problems occurred because USAID/Bolivia did not train PROSALUD employees to use
TraiNet. Nor did the mission give them access to the system or provide any guidance on how to
use it. Additionally the mission did not designate anyone from its staff to monitor TraiNet for
completeness and accuracy. Staff reductions and the fact that many mission employees did not
know much about TraiNet contributed to these problems. This also affected other implementing
partners that may not have accesses or training in TraiNet, but are expected to report results.

As a result, USAID/Bolivia’s training results were not complete or accurate, and information
?related to those activities, such as subject area, number of participants, and costs incurred, are
not known. Therefore, we make the following recommendations to improve the mission’s
TraiNet reporting.

   Recommendation 6. We recommend that USAID/Bolivia, in conjunction with
   PROSALUD, verify in writing that all necessary training information is entered into
   USAID’s Training Results and Information Network, and reported in the progress reports
   for the Healthy Communities Project.

   Recommendation 7. We recommend that USAID/Bolivia provide and document training
   to its staff and implementing partners on how to use and report results in USAID’s
   Training Results and Information Network.

   Recommendation 8. We recommend that USAID/Bolivia determine in writing who will
   monitor USAID’s Training Results and Information Network for the mission, and
   implement a verification process to confirm that the information entered and reported is
   accurate.



                                                                                                   8
Mission Did Not Submit Documents
to Clearinghouse
According to ADS 540.3.2, missions must submit specific items in USAID’s Development
Experience Clearinghouse (DEC) throughout the project. The items include research and
technical reports, evaluations, assessments, and quarterly, semiannual, annual, and final
reports describing the project’s progress and accomplishments. Further, to confirm that all
relevant documents have been submitted, operating units should designate individuals to serve
as liaisons to the DEC unit. The liaison could be the agreement officer, agreement officer’s
representative, program officer, or another staff member.

Both the HCP and Promeso awards required PROSALUD to (1) submit documents to the DEC,
(2) maintain a cumulative list of submitted documents, and (3) include a list of submitted
documents as part of its quarterly and annual progress reports.

However, despite these requirements, neither USAID/Bolivia nor PROSALUD submitted any
documents. As a result, the mission’s progress and annual reports, evaluations, assessments,
and research studies for its projects were not in the DEC.

USAID/Bolivia and its implementing partners stopped submitting documents in recent years
because the mission’s employees were focused on other priorities and did not monitor the
implementing partners’ adherence to this requirement properly. While USAID/Bolivia officials
recognized this problem and started working to resolve it, as of March 1, 2013, the required
documents have not yet been submitted.

According to USAID, “The DEC is the Agency’s living archive for best practices, lessons
learned, and challenges faced among its multitude of development programs. Capturing the
right information is crucial since documents maintained in the DEC provide insight into the
history of international development and a framework for future innovations.” Failure to submit
documents into the DEC would reduce USAID’s ability to improve the performance and
effectiveness of existing and new programs, and evaluate alternative approaches for achieving
best practices in program and technical areas. Therefore, we make the following
recommendations.

   Recommendation 9. We recommend that USAID/Bolivia review reporting requirements,
   confirm in writing that all required documents have been submitted to USAID’s
   Development Experience Clearinghouse, and identify and document individuals to serve
   as liaisons to the clearinghouse unit.

   Recommendation 10. We recommend that USAID/Bolivia require PROSALUD to
   include in its progress reports a cumulative list of reports, studies, and documents that
   have been submitted to USAID’s Development Experience Clearinghouse.




                                                                                               9
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, USAID/Bolivia identified actions planned or taken in response
to each of our recommendations. Mission officials also informed us that because the Bolivian
Government asked USAID to leave the country, they expect to close the mission by November
2013. Based on our evaluation of management comments on our draft report, we acknowledge
that final action has been taken on seven recommendations and management decisions have
been reached on three recommendations. Our detailed evaluation of management comments
follows.

Recommendation 1. USAID/Bolivia agreed with the recommendation. The M&E plan, with
defined project indicators, is being translated and will be ready for USAID’s review by May 7,
2013. Accordingly, a management decision has been reached on this recommendation.

Recommendation 2. USAID/Bolivia agreed with this recommendation. A meeting with
participants of the five PROSALUD regional offices was held in April to review and validate
project indicators. Promeso is working to finalize the indicator lists and will send the final M&E
plan to USAID for approval by May 31, 2013. Accordingly, a management decision has been
reached on this recommendation.

Recommendation 3. The mission did not fully agree with our analysis, but agreed to solicit
assistance from Abt Associates to provide additional technical assistance to PROSALUD and
Promeso to validate and update the initial sustainability analysis and to develop a new
sustainability plan by September 2013. However, since the mission is scheduled to close, this
action cannot be funded. Based on these facts, we have determined that final action was taken
on this recommendation.

Recommendation 4. USAID/Bolivia partially concurred with the recommendation. Officials
agreed to assign a financial team to follow up on the contraceptives marketing accounts, and
they developed a new financial informatics system to track all purchases, sales, and payments.
According to the mission, a new system to collect outstanding credits is expected to be
operational by May 7, 2013. Accordingly, a management decision was reached on this
recommendation.

Recommendation 5. The mission did not concur with the recommendation, but nonetheless
planned to address our concern by taking the M&E component out of HCP and assigning it to
another contractor so HCP no longer had oversight over the health strategy indicators.
However, since the mission is scheduled to close, this action was canceled. Based on these
facts, we have determined that final action was taken on this recommendation.

Recommendation 6. USAID/Bolivia agreed with this recommendation. The mission has
assigned a TraiNet expert to help the mission comply with the ADS requirement. Based on the
actions taken by the mission, we have determined that final action was taken on this
recommendation.

Recommendation 7. USAID/Bolivia agreed with this recommendation. All agreement and


                                                                                               10
contracting officer’s representatives got passwords to enter TraiNet and received the relevant
training. In April 2013, health office implementing partners attended training workshops on
TraiNet. Based on the mission’s actions, we have determined that final action was taken on this
recommendation.

Recommendation 8. USAID/Bolivia agreed with this recommendation. The mission identified
and assigned a TraiNet expert who will be responsible for monitoring TraiNet for completeness
and accuracy, and for improving the mission’s TraiNet reporting capabilities. Additionally, all
agreement and contracting officer’s representatives were provided access to TraiNet and are
expected to monitor the information entered by their implementing partners to ensure all
qualified trainings are reported consistently and accurately. Based on the mission’s actions, we
have determined that final action was taken on this recommendation.

Recommendation 9. USAID/Bolivia agreed with this recommendation. PROSALUD has
submitted and uploaded all documents produced during the first year of implementation,
quarterly reports, and the FY 2012 annual reports. The administrative assistant in the mission’s
health office has been trained to upload documents to the DEC and serves as a resource for
implementing partners that may encounter difficulties with the system. Agreement and
contracting officer’s representatives will work to be sure their implementing partners comply with
the USAID requirement. Based on the mission’s actions, we have determined that final action
was taken on this recommendation.

Recommendation 10. USAID/Bolivia agreed with this recommendation. PROSALUD gave
USAID/Bolivia a cumulative list of reports, studies, and documents that were submitted to the
DEC. This requirement will be part of PROSALUD’s next and subsequent progress reports.
Based on the mission’s actions, we have determined that final action was taken on this
recommendation.




                                                                                               11
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. They require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of the audit was to determine whether USAID/Bolivia’s health program achieved its
goals of strengthening the capacity of community-level health systems, expanding access to
contraceptives, and increasing awareness of sexual and reproductive health. For purposes of
this audit, the health program refers to two awards implemented by PROSALUD—HCP and
Promeso—that represented about 40 percent of USAID/Bolivia’s health portfolio as of
September 30, 2012. Other awards to public international organizations were excluded because
USAID does not have full audit rights over them.

HCP is a 5-year, $14.2 million project that began on December 12, 2011. Promeso is a 3-year,
$5 million project that began on September 30, 2011. As of March 1, 2013, both projects had
disbursed a total of $3.6 million, which represents the amount tested.

The audit fieldwork was conducted at USAID/Bolivia, implementer offices in La Paz and Santa
Cruz, and various municipalities in Chuquisaca and La Paz Departments from January 28
through February 8, 2013, and from February 25 through March 1, 2013. We interviewed key
USAID/Bolivia and PROSALUD staff members, as well as various government officials and
community representatives.

As part of the audit, we assessed the significant internal controls USAID/Bolivia used to monitor
its health program. The assessment included controls to determine whether the mission
(1) conducted and documented site visits to evaluate progress and monitor quality, (2) reviewed
and approved required deliverables, (3) reviewed and tested indicator targets and results, and
(4) performed data quality assessments and portfolio reviews. Additionally, we reviewed the
mission’s annual certification required by the Federal Managers’ Financial Integrity Act of 1982,
Title 31 United States Code 3512, to verify whether the assessment cited any relevant
weaknesses. We also reviewed prior audit reports in the health area for any problems related to
the audit objective.

Methodology
To answer the audit objective, we evaluated the mission’s management and oversight of the
projects, the performance of PROSALUD, and the effectiveness of the activities. We met with
USAID/Bolivia’s agreement officer’s representative, health office director and M&E specialist,
acting program office director, and other staff members associated with the projects. We held
numerous meetings with PROSALUD’s chief of party for both projects, financial managers,
logistics coordinators, M&E specialists, and project supervisors and facilitators. We also met
with community representatives, government officials, health workers, and commodity
distributors.


                                                                                              12
                                                                                      Appendix I



To gain an understanding of both projects, the audit team reviewed USAID/Bolivia’s cooperative
agreements and associated modifications, the health office’s performance management plan,
operational plan, performance plan and report, data quality assessments, site visit reports, and
portfolio review results. We also reviewed PROSALUD’s work plans, progress reports,
monitoring and evaluation plans, and other documents that support both projects. We reviewed
applicable policies and procedures pertaining to USAID/Bolivia’s implementation of both
projects, such as ADS.

We used a judgmental sample rather than a statistical sample because a statistical one would
have required more time and a larger budget for traveling around Bolivia. Therefore, we
judgmentally selected 4 of the 11 site offices of HCP and 1 of the 5 regional offices of Promeso
to conduct field visits. The sample selection was based on an analysis of relevant factors,
including recent assessments, the schedule of planned events, activities implemented,
accessibility, and travel time and cost. The final itinerary was refined through discussions with
USAID/Bolivia. During field visits, we met with local officials, community representatives, and
distributors to validate activities accomplished and results reported. We also reviewed
documentation and conducted interviews at the main offices of HCP and Promeso. Because a
statistical sample was not used, the sample results cannot be projected to the entire population.




                                                                                              13
                                                                                    Appendix II



MANAGEMENT COMMENTS 



MEMORANDUM

DATE:                 May 07, 2013

TO:	                  Jon Chasson, Regional Inspector General/San Salvador

FROM:                 Janina Jaruzelski, Mission Director, USAID/Bolivia

SUBJECT:              Management Comments
                      Mission Response to Audit of USAID/Bolivia’s Health Program (Report
                      No. 1-511-13-00X-P

REFERENCE:            Draft audit report No. 1-511-13-00X-P dated April 15, 2013


Thank you for doing such a thorough review of the PROSALUD programs. You may have heard
that the USAID Mission in Bolivia has been asked to leave the country within a “reasonable
time” per the decision of the President of Bolivia, Mr. Evo Morales, taken on May 1, 2013.
While no precise timeline has been provided by the Government, we presently expect full
Mission closure within the next 3-6 months. Thus these findings will be moot. However, prior to
the Government of Bolivia’s decision, we had taken actions in response to the referenced draft
audit report. Please find below the management comments and action on the ten
recommendations taken to date and included below:

Recommendation 1: In conjunction with PROSALUD, complete PROMESO’s M&E plan,
which will clearly define each indicator and its target, source, and method for data
collection?

Management Comments:
Mission management concurs with this recommendation. USAID/Bolivia initiated corrective
actions to address the above recommendation as follows:

   1.	 PROMESO has hired an experienced Monitoring and Evaluation specialist, David
       Molina, who is now in charge of all of PROMESO’s M&E activities;
   2.	 PROMESO’s M&E specialist has been receiving technical assistance from SHOP’S (a
       Washington D.C. field support mechanism) consultants on defining annual and life of
       project targets;

                                                                                             14
                                                                                          Appendix II


   3.	 The final M&E Plan document is being translated and will be ready for USAID’s review
       by May 7th, 2013 (See Annex 1).

As the necessary actions have been taken, the Mission requests closure of this recommendation
upon issuance of the subject audit report.

Recommendation 2: In conjunction with PROSALUD, implement a validation and
verification process for PROMESO’s indicators.

Management Comments:

USAID/Bolivia agrees with this recommendation and the following actions were taken to
address it:

   1.	 The PROSALUD/PROMESO M&E specialist is working with the SHOPS consultant to
       finalize the indicator lists and tables produced;
   2.	 The draft indicator tables were reviewed with the PROSALUD/PROMESO M&E
       specialist, the Monitoring Unit of HCP and the Mission’s Health Office monitoring
       official;
   3.	 From April 16 to18 a meeting with participants of the five PROSALUD regional offices
       (La Paz, Cochabamba/Oruro, Santa Cruz, & Riberalta) were held where all project
       indicators were reviewed and validated, as well as the M&E Plan;
   4.	 As mentioned earlier, PROSALUD/PROMESO will send a new M&E plan to 

       USAID/Bolivia for its approval by May 7th, 2013 (Annex1); 

   5.	 The target to address this recommendation in full is May 31, 2013.

As the necessary actions have been taken, the Mission requests closure of this recommendation
upon issuance of the subject audit report.

Recommendation 3: In conjunction with PROSALUD, complete PROMESO’s
management and sustainability plan.

Management Comments:

The Mission does not agree with the statement, “PROSALUD did not develop a management
and Sustainability Plan for PROMESO” (Page 5 ) The Mission believes that this statement
mischaracterizes the actions and intent of the Mission to support PROSALUD’s contraceptives
social marketing program in its efforts to be sustainable.

In 2010, the Mission requested PROSALUD to subcontract a partner institution (Health Systems
20/20) to perform and finalize a financial and sustainability plan for PROSALUD’s social
marketing program. This plan was received and approved in June 20, 2012, under the title “Plan
Financiero de Mercadeo Social” which includes different scenarios in which PROSALUD’s
contraceptives social marketing activities would be sustainable. Each scenario projected a
different length of time for full sustainability. For the mission, this is and continues to be a valid
sustainability plan. PROMESO adopted the financial plan recommendations and is well on its


                                                                                                    15
                                                                                       Appendix II


way to sustainability. The approval letter can be found in Annex 2 and the “Plan Financiero de
Mercadeo Social”, in Annex 3.

The road to sustainability in the social marketing world is a dynamic process. It is plagued by
sudden shifts in political and social acceptance of contraceptives, changes in the mix of different
types of contraceptives used, fundamental modifications to prices and modalities of international
contraceptives procurement, divergent customs and importing procedures and rising
transportation prices, radical market shifts with regard to free versus costed contraceptives
distribution by international organizations (UNFPA, Marie Stopes, etc.). To counter these drastic
changes, the Mission requested Abt Associates (SHOPS) to provide additional technical
assistance to PROSALUD/PROMESO to validate and update the initial sustainability analysis
and to develop a new sustainability plan. The target for completion of this action was September
2013. However, due to Mission closure by the GOB, the Mission will not be able to fund this last
action. Mission requests closure of this recommendation as all feasible steps have been taken,
given the closure of the Mission and its programs.

Recommendation 4: Assist PROSALUD with 1) developing and implementing effective
controls and procedures to avoid unpaid debts, 2) reconciling the accounting records to
determine the exact amounts owed from each distributor, and 3) collecting the amounts
owed.

Management Comments:

The Mission is in partial agreement with this recommendation. The grant to
PROSALUD/PROMESO is a Cooperative Agreement and the Mission believes that the above
actions would constitute extraordinary oversight of the grant. Additionally, the revolving fund is
no longer Federal funds and we have neither mandate nor oversight over them. However, certain
corrective actions have been taken to address this recommendation. USAID/Bolivia and
PROSALUD/PROMESO project staff have worked together on the following:
    1.	 A financial team was assigned to do the follow up of contraceptives marketing accounts;
    2.	 A new financial informatics system was developed: “Sistema de Información de
        Mercadeo” (SIM), to track online all purchasing, sales and payments (see Annex 4) ;
    3.	 A new flow chart was designed to assign personnel to collect outstanding credits and this
        system will be operational by May 7, 2013 (Annex 5);
    4.	 Existing contracts with individual distributors are being revised to include financial or
        real guaranties.

As the necessary actions have been taken, the Mission requests closure of this recommendation
upon issuance of the subject audit report.

Recommendation 5: Assign an independent party to conduct the data quality assessments
for PROMESO.

Management Comments:

The Mission does not agree with this recommendation as the collection and validation of the data


                                                                                                16
                                                                                       Appendix II


and indicators are a Mission function. As a capacity building activity, HCP was tasked with
strengthening the government’s HMIS system and helping implementing partners provide
accurate and timely data to the program managers of FORTALESSA at the Ministry of Health.
However, due to funding exigencies, and the need to consolidate technical assistance, a
solicitation was drafted and was with USAID/Lima for action to pull the M&E component out of
HCP and place it with another contractor. Once the contractor is identified, it was intended that
the M&E component of the grant agreement with HCP would be amended so that HCP no longer
had oversight over the health strategy indicators. Due to the expulsion of USAID from Bolivia,
however, this solicitation must be cancelled. Since the Mission has taken all actions realistic and
feasible and will not be able to take further action, we request that this recommendation be
closed.

Recommendation 6: In conjunction with PROSALUD, verify that all necessary training
information is (a) entered into USAID’s Training Results and Information Network, and
(b) reported in the progress reports for the Healthy Communities Project;

Recommendation 7: Provide training to its staff and implementing partners on how to use
and report results in USAID’s Training Results and Information Network.

Management Comments:

USAID/Bolivia fully agrees with this audit recommendation and has already taken corrective
actions to address this recommendation:

   1.	 A TraiNet subject matter expert (SME), Ms. Ximena Rodriguez, was assigned to support
       the Mission in adhering with this ADS requirement. She, along with the Program Office,
       are working in collaboration with the technical offices to ensure compliance;
   2.	 All CORs and AORs have been assigned and obtained passwords to enter the TraiNet
       system;
   3.	 A training workshop with all health office implementing partners took place on April 24,
       2013 at which the requirements of the ADS and Mission were fully reviewed;
   4.	 Two training workshops for AORs and CORs took place on April 23, 2013 and April 30,
       2013. A list of grantee and mission personnel trained in TraiNet is enclosed (Annex 6).

As the necessary actions have been taken, the Mission requests closure of this recommendation
upon issuance of the subject audit report.

Recommendation 8: Determine who will monitor USAID’s Training Results and
Information Network for the mission, and implement a verification process to confirm that
the information entered and reported is accurate.

Management Comments:

USAID/Bolivia concurs and has already taken corrective action to address this recommendation.
The Mission identified and assigned this task to Ms. Ximena Rodriguez, the Mission’s
Monitoring and Evaluation Specialist, and she is now the TraiNet subject matter expert. Ms.


                                                                                                17
                                                                                     Appendix II


Rodriguez is responsible for monitoring the TraiNet data for completeness and accuracy and to
improve the Mission’s TraiNet reporting capabilities. Additionally, all CORs/AORs have been
provided access to the TraiNet system and are expected to monitor the information being input
by their implementing partners to ensure all qualified trainings are reported consistently and
accurately. As the necessary actions have been taken, the Mission requests closure of this
recommendation upon issuance of the subject audit report.


Recommendation 9: Review reporting requirements and confirm that all required
documents have been submitted to USAID’s Development Experience Clearinghouse, and
identify individuals to serve as liaisons to USAID’s Development Experience Clearinghouse
unit.

Management Comments:
USAID/Bolivia agrees and has already taken corrective action to address this recommendation

   1.	 PROSALUD projects, PROMESO and HCP, have submitted and uploaded all documents
       produced during the first year of implementation, quarterly reports and the FY 2012
       annual reports;
   2.	 All other health partners have been assisted in submitting their reports to the DEC;
   3.	 The USAID/Bolivia Health Office Administrative Assistant has been trained on how to
       upload documents to the DEC and serves as a resource person to the implementing
       partners who may encounter difficulties with the system.
   4.	 CORs/AORs have been alerted to this Agency requirement that is already included in all
       grants and contracts, and will work to ensure compliance by their implementing partners.

Mission suggests that RIG independently verifies that the documents have been submitted to the
DEC. As the necessary actions have been taken, the Mission requests closure of this
recommendation upon issuance of the subject audit report.

Recommendation 10: Require PROSALUD to submit a cumulative list of reports, studies,
and documents sent to USAID’s Development Experience Clearinghouse as part of its
progress reports.

Management Comments:

USAID/Bolivia agrees with this recommendation, and corrective action has already been taken.
PROSALUD has provided USAID/Bolivia with a cumulative list of reports, studies and
documents that have been submitted to the DEC and this requirement will be part of its next and
subsequent progress reports (Annex 7). Mission suggests that RIG independently verifies that the
documents have been submitted to the DEC. As the necessary actions have been taken, the
Mission requests closure of this recommendation upon issuance of the subject audit report.




                                                                                              18
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
